                                                    EMPLOYMENT
                                                    STANDARDS
                                                    ADMINISTRATION

      Office of Inspector General—Office of Audit




          MECHANISMS USED TO IDENTIFY CHANGES IN
DEPENDENT ELIGIBILITY ARE INADEQUATE AT THE FECA
     D    DISTRICT OFFICE IN JACKSONVILLE, FLORIDA




                                                                     Date Issued: September 28, 2007
                                                                     Report Number: 04-07-004-04-431
U.S. Department of Labor                              Mechanisms Used to Identify Changes in
Office of Inspector General                           Dependent Eligibility Are Inadequate at
Office of Audit                                       the FECA District Office in Jacksonville,
                                                      Florida

BRIEFLY…                                              WHAT OIG FOUND
Highlights of Report Number 04-07-004-04-431, a
report to the Assistant Secretary for Employment      We found that mechanisms used to identify
Standards Administration, dated September 28, 2007.   changes in dependent eligibility status and to
                                                      reduce or terminate payments were not always
                                                      followed or sufficient.
WHY READ THE REPORT
                                                      The Jacksonville District Office (1) continued
The Federal Employees' Compensation Act               compensation payments even though claimants
(FECA) program provides benefits for civilian         had not provided required evidence of their
employees of the United States who have               continuing eligibility, and (2) did not reduce
suffered work-related injuries or occupational        compensation payments when evidence
diseases. One program benefit is the                  provided indicated a reduction should have
compensation for wage loss, which is paid at          occurred.
two-thirds of the employee’s pay rate if the
claimant does not have dependents and at an           The Jacksonville District Office Overpayment
augmented rate of three-fourths if the claimant       Aging report dated February 28, 2005, identified
does. Eligible survivors and dependents also          563 overpayment cases, totaling $7.3 million.
receive compensation in death cases.                  Included in these overpayments are those that
                                                      resulted from the untimely reporting of changes
During FY 2004, more than 163,000 new FECA            in spousal relationships or dependent status.
claims were filed with OWCP, and the program
provided nearly 280,000 workers more than $2.4        WHAT OIG RECOMMENDED
billion in benefits for work-related injuries and
illnesses. Of this amount, $131 million               We recommended that the Assistant Secretary
represented death benefits paid to surviving          for the Employment Standards:
dependents.
                                                      1. Change the FECA Procedure Manual to
WHY OIG DID THE AUDIT                                    conform with 20 CFR Section 10.537, which
                                                         requires the semiannual submission of
                                                         medical evidence for disabled dependent
The OIG conducted a performance audit of the
                                                         children.
Jacksonville, Florida, District Office, Division of
Federal Employees' Compensation (DFEC) to
                                                      2. Improve OWCP forms by including
determine if mechanisms were in place to
                                                         dependents’ and survivors’ Social Security
reduce or terminate payments, as appropriate,
when dependents or survivors were no longer              Numbers on key forms.
eligible. Our audit covered FECA activities for
                                                      3. Require claimants to submit their federal tax
FY 2004.
                                                         returns annually.

                                                      4. Ensure that the Jacksonville District Office
READ THE FULL REPORT                                     performs timely follow-up and suspends
                                                         payment of compensation when claimants
To view the report, including the scope,                 do not provide required information timely.
methodology, and full agency response, go to:
                                                      In response to the draft report, the Assistant
http://www.oig.dol.gov/public/reports/oa/2007/04      Secretary for Employment Standards agreed
-07-004-04-431.pdf                                    with recommendations 1, 2, and 4, but
                                                      disagreed with recommendation 3.
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida




Table of Contents
EXECUTIVE SUMMARY..…………………………………………………………………...3

ASSISTANT INSPECTOR GENERAL'S REPORT..……………………………………..5

     Mechanisms Used to Identify Changes in Dependent Eligibility
     Status and to Reduce or Terminate Payments Were Not Always
     Followed or Sufficient....………………………………………………………….....6

APPENDICES……………………………………………………………………………….15

     A. Background……………………………………………………………………....17

     B. Objective, Scope, Methodology and Criteria……………………………….19

     C. Acronyms and Abbreviations...…………………………………………........21

     D. Agency Response...……………………………………………...……………..23




U.S. Department of Labor—Office of Inspector General                                     1
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                     U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                                Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                   Inadequate at the FECA District Office in Jacksonville, Florida


Executive Summary
The Office of Inspector General conducted a performance audit of the dependent
eligibility process at the Jacksonville, Florida, District Office of the Division of Federal
Employees Compensation (DFEC), Office of Workers’ Compensation Programs
(OWCP). Our audit covered payments processed during Fiscal Year (FY) 2004.

During FY 2004, more than 163,000 new Federal Employees Compensation Act
(FECA) claims were filed with OWCP, and the program provided nearly 280,000
workers more than $2.4 billion in benefits for work-related injuries and illnesses. Of this
amount, $131 million represented death benefits paid to surviving dependents. We
limited our work to claims processed by the Jacksonville District Office. Of DFEC’s 12
District Offices, Jacksonville processed the highest number of claims (approximately
20,000) during FY 2004.

The audit objective was to determine if appropriate mechanisms were in place at the
Jacksonville District Office to reduce or terminate payments, as appropriate, when
dependents or survivors were no longer eligible. To accomplish our objective, we
tested augmented payments and death benefit payments processed by the Jacksonville
District Office. Regular compensation is paid at two-thirds of the employee's pay rate if
he or she has no dependents. Compensation payments are augmented to three-fourths
of the employee’s pay rate if he or she is married or has a dependent.

Results

We found that mechanisms used to identify changes in dependent eligibility status and
to reduce or terminate payments were not always followed or sufficient.

The Jacksonville District Office (1) continued compensation payments even though
claimants had not provided required evidence of their continuing eligibility, and (2) did
not reduce compensation payments when evidence provided indicated a reduction
should have occurred.

Nine of the 70 cases1 we tested revealed how improper verification increases the risk of
overpayments. In one case, the claimant's augmented payment rate was not reduced
even though the claimant reported that his spouse was no longer a dependent.

Key claim forms used by the Jacksonville District Office do not include the dependent’s
or survivor’s social security number (SSN). The addition of this information could
improve OWCP’s ability to ensure the legitimacy of the dependent or survivor being
claimed. Furthermore, requiring claimants to submit a copy of their federal tax return
annually would provide another means for OWCP to verify dependent status.

1
 We selected a total of 70 FECA claims for review. Our sample included 35 augmented payments and
35 death benefit claims.


U.S. Department of Labor—Office of Inspector General                                       3
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida



The Jacksonville District Office Overpayment Aging report dated February 28, 2005,
identified 563 overpayment cases, totaling $7.3 million. Included in these overpayments
are those that resulted from the untimely reporting of changes in spousal relationships
or dependent status.

Recommendations

We recommend that the Assistant Secretary for the Employment Standards direct
OWCP/DFEC to:

    1. Change the FECA Procedure Manual to conform with 20 CFR Section 10.537,
       which requires the semiannual submission of medical evidence for physically or
       mentally disabled dependent children.

    2. Improve OWCP forms by including dependents’ and survivors’ social security
       numbers on forms CA 5, CA 12, and CA 1032 so that information verification of
       the claimant data can be more easily performed.

    3. Require claimants to submit their federal tax returns annually to assist DFEC in
       verifying dependent status.

We also recommend that the Assistant Secretary for Employment Standards ensure
that the Jacksonville District Office of DFEC:

    4. Performs timely follow-up and suspends payment of compensation when
       claimants do not provide required information within the time specified by
       regulation.


Agency Response

In response to the draft report, the Assistant Secretary for Employment Standards
agreed with the findings and recommendation in this report, with the exception of the
recommendation to require claimants to submit their Federal tax return annually. The
Assistant Secretary stated that regulations are already in place to verify dependency
status and requiring claimants to provide a copy of their federal tax returns would not
greatly assist in that effort.

OIG Conclusion

We considered ESA’s response in its entirety and found no additional information that
would materially affect the report's findings and recommendations. Requiring claimants
to submit Federal tax return annually is a viable tool that would assist claims examiners'
efforts to verify a claimant’s dependency status. Our findings and recommendations
remain unchanged.

4                                     U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida




U.S. Department of Labor                   Office of Inspector General
                                           Washington, DC 20210




                         Assistant Inspector General’s Report


Ms. Victoria Lipnic
Assistant Secretary for Employment Standards
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

We audited the dependent eligibility process at the Jacksonville, Florida, District Office
of the Division of Federal Employees’ Compensation, Office of Workers’ Compensation
Programs (OWCP). Our audit covered payments processed during FY 2004.

Our audit objective was to determine if appropriate mechanisms were in place at the
Jacksonville District Office to reduce or terminate payments, as appropriate, when
dependents or survivors were no longer eligible.

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.

Objective – Were Appropriate Mechanisms in Place at the Jacksonville District
Office to Reduce or Terminate Payments, as Appropriate, When Dependents or
Survivors Were No Longer Eligible?

The Federal Employees Compensation Act (FECA) program provides benefits for
civilian employees of the United States who have suffered work-related injuries or
occupational diseases. One program benefit is the compensation for wage loss, which
is paid at two-thirds of the employee’s pay rate if the claimant does not have
dependents and at an augmented rate of three-fourths if the claimant does. Eligible
survivors and dependents also receive compensation in death cases.

Federal regulations direct OWCP to implement specified controls to verify claimants’
continuing eligibility for augmented compensation and death case beneficiaries’
continuing eligibility for compensation. These controls require that claimants receiving
augmented payments periodically verify their marital status and the eligibility of
dependent children. Beneficiaries in death cases are required to annually submit a

U.S. Department of Labor—Office of Inspector General                                     5
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida

report regarding their marital status and continuing eligibility of dependent children. An
employee is required to submit proof of continuing eligibility for children over the age of
18 who are students or who are physically or mentally incapable of self support.

Results and Finding

Finding: Mechanisms Used to Identify Changes in Dependent Eligibility Status
and to Reduce or Terminate Payments Were Not Always Followed or Sufficient.

Compensation payments were not reduced in accordance with regulations:

The Jacksonville District Office (1) continued compensation payments even though
claimants had not provided required evidence of their continuing eligibility, and (2) did
not reduce compensation payments when evidence provided indicated a reduction
should have occurred.

During Fiscal Year 2004, claimants and beneficiaries continued to receive
compensation payments even though they had not timely provided the following
required evidence of their continuing eligibility: Form CA-1032 (OWCP form letter sent
to claimants annually to verify work status, and dependent status); Form CA-12 (OWCP
form letter sent to beneficiary claimants annually to verify their status); and Form CA-
1617 (OWCP form used semiannually to verify that a child over the age of 18 is a
student).

Nine of the 70 cases1 we tested revealed how improper verification increases the risk of
overpayments. In one case, the claimant's augmented payment rate was not reduced
even though the claimant reported that his spouse was no longer a dependent.

A. Claimants did not return Form CA-1032 in FY 2004 and no action was taken by
   the Jacksonville District Office.

20 CFR 10.536 states:

       If an employee fails to submit a requested statement or supporting
       document within 30 days of the date of the request, OWCP will suspend
       his or her right to augmented compensation until OWCP receives the
       requested statement or supporting document. At that time, OWCP will
       reinstate augmented compensation retroactive to the date of suspension,
       provided that the employee is entitled to receive augmented
       compensation.

1. Case No. 060178481 – The claimant was married according to the most recent
Form CA-1032, dated October 15, 2002. OWCP mailed a subsequent Form CA-1032

1
 We selected a total of 70 FECA claims for review. Our sample included 35 augmented payments and
35 death benefit claims.


6                                       U.S. Department of Labor—Office of Inspector General
                                                                Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida

to the claimant on August 31, 2004; however, the claimant file shows that the claimant
did not respond. OWCP continued to pay compensation to the claimant through
December 2004. Per DOL regulations at 20 CFR 10.536 compensation should have
been suspended 30 days after the claimant’s failure to return Form CA-1032. We found
no evidence of OWCP taking appropriate action to suspend compensation.

Jacksonville District Office officials agreed with the finding and stated they suspended
the claimant’s compensation benefits. Benefits were restored when the claimant
submitted the Form CA-1032.

2. Case No. 060446645 – The claimant last submitted a Form CA-1032 on
July 14, 2002, at which time the claimant indicated that he was married. OWCP mailed
a Form CA-1032 to the claimant on July 1, 2004; however, the claimant’s file shows that
the claimant did not respond. OWCP continued to pay compensation to the claimant
through December 2004. Compensation should have been suspended due to the
claimant’s failure to return the Form CA-1032. We found no evidence of the
Jacksonville District Office taking appropriate action to suspend compensation.

Jacksonville District Office officials agreed with the finding but because subsequent
forms were returned timely, no overpayment was established.

3. Case No. 060178438 – The claimant last submitted a Form CA-1032 on May 12,
2003. OWCP mailed a Form CA-1032 to the claimant during FY 2004; however, the
claimant’s file shows that the claimant did not respond. Compensation should have
been suspended due to the claimant’s failure to submit a Form CA-1032 for FY 2004.

Jacksonville District Office officials agreed with the finding but because subsequent
forms were returned timely, no overpayment was established.

B. Claimant or beneficiary did not provide required medical evidence and the
   Jacksonville District Office did not take the appropriate action to obtain the
   information.

1. Case No. 070064398 – The beneficiary, a child of the deceased claimant, was a
male with cerebral palsy who was 27 at the time of our audit. Semiannual medical
reports were not submitted as required.

20 CFR Section 10.537 states:

       (a) Compensation payable on behalf of a child that would otherwise
       end when the child reaches 18 years of age will continue if and for so
       long as he or she is not married and is either a student as defined in 5
       U.S.C. 8101(17), or physically or mentally incapable of self-support.
       (b) At least twice each year, OWCP will ask an employee who receives
       compensation based on the student status of a child to provide proof of
       continuing entitlement to such compensation, including certification of


U.S. Department of Labor—Office of Inspector General                                     7
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida

       school enrollment.
       (c) Likewise, at least twice each year, OWCP will ask an employee
       who receives compensation based on a child's physical or mental
       inability to support himself or herself to submit a medical report
       verifying that the child's medical condition persists and that it
       continues to preclude self-support.
       (d) If an employee fails to submit proof within 30 days of the date
       of the request, OWCP will suspend the employee's right to compensation
       until the requested information is received. At that time OWCP will
       reinstate compensation retroactive to the date of suspension, provided
       the employee is entitled to such compensation.

Jacksonville District Office officials disagreed with the finding. They stated:

       The electronic file does not contain recent medical reports to support the
       fact that the beneficiary continues to be a disabled adult; the paper file
       contains medical evidence which supports a finding that the adult child will
       continue to be entitled to dependent survivor’s benefits until his death due
       to cerebral palsy. Please refer to Procedural Manual Part 2 Section 700
       which states: A dependent is incapable of self support if his or her
       physical condition is such that he or she is unable to obtain and retain a
       job, or engage in self employment that would provide a sustained living
       wage. The determination must be based on medical evidence. When
       medical evidence demonstrates incapacity for self-support this
       determination will stand unless refuted by sustained work performance.
       Based on this type of condition, medical reports are not required.

The FECA Procedural Manual does not comply with the requirements of 20 CFR
10.537(c). These regulations do not provide for any waiver of the requirement for
semiannual submission of medical documentation. Therefore, compensation benefits
should have been suspended.

2. Case No. X0798470 – The adult dependent child who was 52 years of age at the
time of audit had been determined to be mentally challenged and unable to support
himself. The most recent medical evidence in the case file dated back to 1985.
Semiannual medical reports were not submitted as required.

20 CFR 10.537(c) states:

       …at least twice each year, OWCP will ask an employee
       who receives compensation based on a child's physical or mental
       inability to support himself or herself to submit a medical report
       verifying that the child's medical condition persists and that it
       continues to preclude self-support.

Jacksonville District Office officials disagreed with this finding and stated the following:

8                                     U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida


       Currently, the adult dependent child is 52 years of age. At the age of 32
       the adult dependent child was functioning at the 1st to 2nd grade level.
       Clearly, the adult dependent child is unable to handle any type of day to
       day activity without assistance. Therefore, current medical evidence is not
       required. Although, the aforementioned information is not contained in the
       electronic file, it is contained in the paper file.

We do not dispute the issue that the beneficiary is unable to perform any type of day to
day activity without assistance. However, based on the requirements specified at 20
CFR 10.537(c), we find that medical evidence is required to be submitted semiannually.
Even in cases of long-term irreversible conditions, current federal regulations do not
provide for a waiver of semiannual submission of medical documentation.

C. Widows did not return Form CA-12 and the Jacksonville District Office did not
   take the appropriate action.
 .
1. Case No. 1193121 – A widow did not submit a Form CA-12 for FY 2004. The
Jacksonville District Office did not suspend compensation benefits as required by 20
CFR 10.536.

20 CFR 10.536 states:

       If an employee fails to submit a requested statement or supporting
       document within 30 days of the date of the request, OWCP will suspend
       his or her right to augmented compensation until OWCP receives the
       requested statement or supporting document. At that time, OWCP will
       reinstate augmented compensation retroactive to the date of suspension,
       provided that the employee is entitled to receive augmented
       compensation.

Jacksonville District Office officials agreed with the finding but because subsequent
forms were returned timely, no overpayment was established.

2. Case No. 060058927 – A Widow did not submit the Form CA-12 timely. The CA-12
was returned to the District Office blank in December 2003, but the Jacksonville District
Office continued to pay compensation. A Form CA-12 was not returned completed until
December 2004. The Jacksonville District Office did not appropriately suspend
compensation benefits as required by federal regulations 20 CFR 10.536.

Jacksonville District Office officials agreed with the finding but, because the claimant did
submit a CA-12 in December 2004, an overpayment was not established.




U.S. Department of Labor—Office of Inspector General                                     9
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida

D. The claimant did not return Form CA-1617 and no action was taken by the
   Jacksonville District Office.

Case No. 062000421 – Form CA-1617 was not returned as evidence to support the
school enrollment of the claimant’s dependent over the age of 18 years, and the
Jacksonville District Office did not follow up to obtain the required information.

20 CFR 10.537 requires that any claim for dependent children who are over the age of
18 and in school include verifying documentation that the child remains a student. The
verifying documentation should be submitted twice a year. 20 CFR 10.417 contains
similar requirements for beneficiaries in death benefit cases.

Jacksonville District Office officials agreed with this finding but explained that the claims
examiner’s primary focus is to process claims and that time constraints do not permit
semiannual confirmation of claimant information. Also, the claimant’s compensation
was reduced and one check issued incorrectly was returned. No overpayment was
established.

E. Claimant’s augmented payment was not reduced even though claimant’s
   spouse was no longer a dependent.

Case No. 060000241 – The claimant indicated on Form CA-1032, dated March 2, 2004,
that he was still married but no longer supported his wife nor did she live with him. He
also indicated that she lived in a nursing home and was supported through Social
Security and a small retirement income. Based on this information, the Jacksonville
District Office should have reduced the claimant’s augmented payment to two-thirds, but
did not do so at that time. After the claimant’s wife died on August 9, 2004, the
Jacksonville District Office reduced the claimant’s augmented payment to two-thirds.

The lack of oversight by Jacksonville District Office officials resulted in compensation
overpayments to the claimant from March 2, 2004 (the date he signed the Form CA-
1032 indicating that he no longer lived with nor supported his spouse) to August 9, 2004
(the date that his wife died).

Jacksonville District Office officials agreed with the finding and stated that they
established an overpayment for the period when the claimant’s wife entered the nursing
home through her date of death. The amount of the overpayment totaled $2,976.

Improvements to program forms and procedures could prevent overpayments

The goal of confirming dependent eligibility could be more readily met with the inclusion
of dependents’ and survivors’ Social Security Numbers (SSNs) on key forms and by
requiring claimants to submit copies of their Federal tax returns.

The Forms CA-5, CA-1032, and CA-12 do not require dependents’ and survivors’ SSNs.
The lack of this critical information hampers DFEC’s ability to verify these individuals’

10                                    U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida

eligibility status. By including the SSNs on the previously mentioned forms, claims
examiners could ensure the legitimacy of the dependent or survivor being claimed. This
information would also assist the Office of Labor Racketeering and Fraud Investigations
(OLRFI) when it performs background verifications on claimants and their dependents.

One OWCP official stated that, “Although our forms do not presently collect SSNs for
dependents or survivors, action is already underway to change this policy.” The official
noted that OWCP must first obtain approval from OMB before making any changes to
forms. Additionally, OWCP will need to add fields to its computer system to be able to
enter the SSNs, which is less of a priority than other computer modifications.

Dependents’ and survivors’ status could also be verified through the submission of the
claimants’ annual Federal tax returns. The annual tax returns would provide vital
information attested to by the individual and should be easily verifiable by claims
examiners.

Established overpayments demonstrate the effect of control weaknesses

When an overpayment occurs, the Jacksonville District Offices establishes
overpayments and tracks the receivable until it is recovered or deemed uncollectible.
According to a Jacksonville District Office official, overpayments occur for the following
reasons:

       • dependent no longer eligible,

       • duplicate compensation check issued,

       • duplicate bill payments for same date of service,

       • change in life insurance,

       • change in health benefits, and

       • claimant returns to work and compensation check still issued.

The Jacksonville District Office Overpayment Aging report dated February 28, 2005
identified 563 delinquent overpayment accounts totaling $7,348,171. The report
showed that 72 of these accounts were more than 60 days old. Included in these
overpayments are those that resulted from the untimely reporting of changes in spousal
relationships or dependent status. The following five cases provide examples of
overpayments, totaling nearly $64,000 that OWCP had already established at the time
of our review. These cases illustrate the impact of the Jacksonville District Office not
properly following up to verify claimant and dependent information and the claimant’s
failure to notify the District Office in a timely manner. However, it should be noted that
when a claimant is without fault, the law states OWCP may not recover the
overpayment. For example, in the five cases below the overpayments are being


U.S. Department of Labor—Office of Inspector General                                     11
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida

satisfied by claimant’s payments or deductions from the claimant’s checks. In two of the
five cases the claimant was without fault.

1. Case No. 060514557 – The Jacksonville District Office determined that the claimant
was not entitled to the three-fourths augmented rate because the claimant’s dependent
son was either not enrolled in school on a full time basis or was over the age of 23. The
overpayment occurred for several periods of time, from June 1992 through May 2003
and resulted in an overpayment of $19,520.82. OWCP found the claimant was without
fault.

2. Case No. 060740511 – The District Office determined that the claimant did not have
any eligible dependents as claimed, thus reducing his augmented rate from
three-fourths to two-thirds. The overpayment period began March 2000 through
November 2001 and resulted in an overpayment of $9,443.26. OWCP found the
claimant was without fault.

3. Case No. 130850428 – The District Office determined that the claimant claimed a
dependent daughter after she turned 18 years old and completed school, thereby no
longer qualifying as an eligible dependent. The claimant was no longer entitled to the
three-fourths augmented rate. This resulted in an overpayment of $3,244.97 for the
period of May 2002 through July 2003. OWCP found the claimant was at fault.

4. Case No. 060222582 – The District Office determined that the claimant divorced in
February 2000 and did not report the change in dependent status. The claimant failed
to report the dependent status of his daughter on subsequent Forms CA-1032. This
omission resulted in the claimant receiving benefits at the incorrect augmented rate for
a period beginning February 2000 through August 2003. The overpayment amount was
$10,433.78. OWCP found the claimant was at fault.

5. Case No. 250474288 – The District Office determined that the claimant was paid at
the augmented compensation rate (three-fourths) for the period of November 1997
through June 2004. The claimant reported on the Form CA-1032 that she was divorced
and had no dependents. This resulted in an overpayment of $21,077.47. OWCP found
the claimant was at fault.

Had the Jacksonville District Office complied with program regulations, and had claims
examiners been provided survivors’ and dependents’ SSNs and claimants’ annual tax
returns, some or all of the overpayment examples we provided above could have been
minimized or eliminated.




12                                    U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida

Recommendations

We recommend that the Assistant Secretary for the Employment Standards direct
OWCP/DFEC to:

   1. Change the FECA Procedure Manual to conform with 20 CFR Section 10.537,
      which requires the semiannual submission of medical evidence for physically or
      mentally disabled dependent children.

   2. Improve OWCP forms by including dependents’ and survivors’ social security
      numbers on forms CA 5, CA 12, and CA 1032 so that information verification of
      the claimant data can be more easily performed.

   3. Require claimants to submit their Federal tax returns annually to assist DFEC in
      verifying dependent status.

We also recommend that the Assistant Secretary for Employment Standards ensure
that the Jacksonville District Office of DFEC:

   4. Performs timely follow-up and suspends payment of compensation when
      claimants do not provide required information within the time specified by
      regulation.

Agency Response

In response to the draft report, the Assistant Secretary for Employment Standards
agreed with the findings and recommendations, with the exception of the
recommendation to require claimants to submit their Federal tax return annually. The
Assistant Secretary stated that regulations are already in place to verify dependency
status and requiring claimants to provide a copy of their federal tax returns would not
greatly assist in that effort.

OIG Conclusion

We considered ESA’s response in its entirety and found no additional information that
would materially affect the report's findings and recommendations. Requiring claimants
to submit Federal tax return annually is a viable tool that would assist claims examiners'
efforts to verify a claimant’s dependency status. Our findings and recommendations
remain unchanged.




Elliot P. Lewis
June 27, 2007


U.S. Department of Labor—Office of Inspector General                                     13
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                    U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida




Appendices




U.S. Department of Labor—Office of Inspector General                                     15
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                    U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida

                                                                                Appendix A

BACKGROUND

The Federal Employees’ Compensation Act (FECA) provides benefits for civilian
employees of the United States who have suffered work-related injuries or occupational
diseases. These benefits include payment of medical expenses and compensation for
wage loss. FECA also provides for payment of benefits to dependents of employees
who die from work-related injuries or diseases. The Office of Workers’ Compensation
Programs (OWCP) was established in 1916 to administer claims under FECA. Benefits
are available under this Act to more than three million federal employees and Peace
Corps and Americorps Vista volunteers.

OWCP strives to make this program more efficient and responsive. In striving to protect
worker benefits, OWCP pledges to work toward:

    •   minimizing the human, social and financial impact of work-related injuries;
    •   improving employer and employee representative performance in the delivery of
        services to injured workers and in the administration of OWCP statutes; and
    •   enhancing the fiscal integrity of managed public trust funds.

The Division of Federal Employees' Compensation adjudicates new claims for benefits
and manages ongoing cases, pays medical expenses and compensation benefits to
injured workers, and helps injured employees return to work when they are medically
able to do so.

Beyond paying for medical benefits and claimants’ compensation, FECA also provides
additional or augmented compensation for:

    •   claimants who are married or have dependents; and
    •   survivors of deceased claimants who meet specified conditions.

Regular compensation is paid at two-thirds of the employee's pay rate if he or she has
no dependents. Compensation is augmented to three-fourths of the pay rate if the
claimant is married or has one or more dependents. To receive an augmented
payment, the claimant must claim a spouse or a dependent on their claim.

Management informed us that OWCP reported in FY 2004, that more than 163,000 new
FECA claims were filed, and the FECA program provided nearly 280,000 workers more
than $2.4 billion in benefits for work-related injuries and illnesses. Of these benefit
payments, nearly:

   •    $1.6 billion was for wage loss compensation;
   •    $704 million was for medical and rehabilitation services; and
   •    $131 million was for death benefit payments to surviving dependents.


U.S. Department of Labor—Office of Inspector General                                     17
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida

According to Jacksonville District Office Officials, in FY 2004, the Jacksonville District
Office, which processes claims in OWCP’s Region IV, processed approximately 20,000
claims. As of FY 2005, there were approximately 25,000 claimants receiving FECA
benefits in the Jacksonville District.




18                                    U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida

                                                                                  Appendix B

Objective, Scope, Methodology, and Criteria

Objective

Our objective was to determine if appropriate mechanisms were in place at the
Jacksonville District Office to reduce or terminate payments when dependents or
survivors were no longer eligible.

Scope and Methodology

We audited augmented payments to claimants and death benefit payments to eligible
survivors serviced by the Jacksonville District Office for the FY 2004.

To accomplish our objective, we reviewed applicable laws, regulations and FECA
program procedures and identified the system of controls required by Federal
regulations. We also interviewed Jacksonville District Office Officials to gain an
understanding of the FECA program, its functions and activities and compared the
system of controls in place as described by program officials with those required by
regulation.

Additionally, we obtained the universe of FECA claimants for FY 2004 from the DFEC
National Office, and identified the universe of augmented and death benefit cases at the
Jacksonville District Office. We selected a random sample of cases from each
universe.

We also determined the FECA payments made to the universe of augmented case
beneficiaries at Jacksonville during the Fiscal Year 2004. The total amount of
payments was more than $225 million, and death benefit payments was about $26
million.

The universe size for claimants receiving augmented payments was 10,336 and 1,077
for claimants receiving death benefit payments. We randomly selected and tested a
sample of 35 participants from each universe to determine whether augmented and
death benefit payments were properly supported and the required controls were being
adhered with. The total amounts of our augmented sample and death benefit sample
were $807,267.00 and $772,541.00 respectively. We also independently verified that
augmented and death benefit payments were legitimate. We received assistance from
the Atlanta OIG Office of Labor Racketeering and Fraud Investigation (OLRFI) in our
attempt to verify whether:

   •   Claimants who received augmented payments were alive in FY 2004.
   •   Claimants were married during FY 2004.
   •   Claimed dependents were alive in FY 2004.



U.S. Department of Labor—Office of Inspector General                                     19
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida

We haphazardly selected 15 of the 563 overpayments from OWCP’s Final Aging Report
as of February 28, 2005. The total amount of the 15 cases was $102,855.79, and were
all augmented overpayments. We provided details for 5 of the 15 samples in the report
as further evidence of internal control weaknesses in identifying changes in dependent
status.

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Fieldwork was performed at the Jacksonville District Office from
May 10, 2005, through June 27, 2007.

Criteria

20 CFR Parts 10 and 25 (Claims for Compensation Under the Federal Employees'
Compensation Act, As Amended)

Federal Employees’ Compensation Act

FECA Procedure Manual Part 2, Claims

DFEC Handbook for Employing Agency Personnel




20                                    U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida

                                                                                  Appendix C


Acronyms and Abbreviations

CA 5          Claim for Continuance of Compensation Under the Federal
              Employees’ Compensation Act

CA 12         Claim for Compensation by Widow, Widower, and/or Children

CA 1032       Claimant Employment and Marriage Verification form letter

CA 1615       Student Verification for Disability Cases

CA 1617       Student Verification for Death Cases

CFR           Code of Federal Regulations

DFEC          Division of Federal Employees’ Compensation

ESA           Employment Standards Administration

FECA          Federal Employees' Compensation Act

FY            Fiscal Year

OIG           Office of Inspector General

OLRFI         Office of Labor Racketeering and Fraud Investigations

OWCP          Office of Workers' Compensation Programs
SSN           Social Security Number




U.S. Department of Labor—Office of Inspector General                                     21
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                    U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
                              Mechanisms Used to Identify Changes in Dependent Eligibility Are
                                 Inadequate at the FECA District Office in Jacksonville, Florida

                                                                                  Appendix D


AGENCY RESPONSE




U.S. Department of Labor—Office of Inspector General                                     23
Report No: 04-07-004-04-431
Mechanisms Used to Identify Changes in Dependent Eligibility Are
Inadequate at the FECA District Office in Jacksonville, Florida




24                                    U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-07-004-04-431
